No.
IN THE SUPREME COURT OF THE UNITED STATES

Mary Strong,
Petitioner, pro se
v.
U.S. BANK TRUST, N.A., AS TRUSTEE FOR LSF9
MASTER PARTICIPATION TRUST
Respondents

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition For Writ of
Certiorari contains 5,948 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 15, 2020.

Mary Strong, Petitioner pro se
2559 NW Monterey Pines Drive
Bend, Oregon 97703
541-728-7905
marvstrong@bendbroadband.com

